Report No. D-2011-081                         July 11, 2011





     Contract Management of Joint Logistics Integrator 

       Services in Support of Mine Resistant Ambush 

          Protected Vehicles Needs Improvement

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC                           Army Contracting Command
AFSB                          Army Field Support Brigade
BPA                           Blanket Purchase Agreement
COR                           Contracting Officer’s Representative
D&F                           Determination and Findings
FAR                           Federal Acquisition Regulation
GSA                           General Services Administration
JLI                           Joint Logistics Integrator
JPO                           Joint Program Office
MCSC                          Marine Corps Systems Command
MRAP                          Mine Resistant Ambush Protected
RRAD                          Red River Army Depot
RSA                           Regional Support Activity
SAIC                          Science Applications International Corporation
SOP                           Standard Operating Procedure
SOW                           Statement of Work
T&M                           Time-and-Materials
                                 INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                400 ARMY NAVY DRIVE 

                           ARLINGTON , VIRGINIA 22202-4704 





                                                                             July 11,2011

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, MARINE CORPS SYSTEMS COMMAND

SUBJECT: Contract Management of Joint Logistics Integrator Services in Support of
         Mine Resistant Ambush Protected Vehicles Needs Improvement
         (Report No. D-2011-081)

We are providing this report for your information and use. We identified a contractor
with organizational conflicts of interest performing inherently governmental functions on
a Joint Logistics Integrator services contract for Mine Resistant Ambush Protected
vehicles. We considered management comments on a draft ofthis report when preparing
the final report.

The comments from the Commander, Marine Corps System Command, and the
Executive Director, Army Contracting Command-Warren, conformed to the requirements
of DoD Directive 7650.3 and left no unresolved issues. Therefore, we do not require
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071).



                                           11::~~~::y'
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
 Report No. D-2011-081 (Project No. 2009-D000CK-0100.002)                               July 11, 2011


                 Results in Brief: Contract Management of
                 Joint Logistics Integrator Services in
                 Support of Mine Resistant Ambush Protected
                 Vehicles Needs Improvement
                                                              Warren officials stated that they could not estimate
What We Did                                                   the extent or duration of the work needed due to
This is the third report in a series on maintenance           constant changes in mission need and work
support contracts for Mine Resistant Ambush                   performed. Consequently, the contracting officer
Protected (MRAP) vehicles. We reviewed and                    awarded a contract type which provides no
evaluated the Army’s award and administration of              incentive to the contractor for cost control or labor
the Joint Logistics Integrator (JLI) contracts. The           efficiency and significantly increased risk to DoD.
initial contract, awarded in 2007, was valued at
$193.4 million, and the follow-on contract,                   What We Recommend
awarded in 2009, was valued at $285.5 million.                The Commander, Marine Corps Systems
                                                              Command, needs to require JPO MRAP officials to
What We Found                                                 obtain training on inherently governmental
Army Contracting Command (ACC)-Warren and                     functions and organizational conflicts of interest
Joint Program Office (JPO) MRAP officials (the                requirements. The Program Manager, JPO MRAP,
officials) inadequately planned for the follow-on             needs to issue guidance to ensure that future JLI
contract award and did not effectively administer             services do not include the performance of
the contract. The officials inappropriately allowed           inherently governmental functions. The Executive
the contractor to perform inherently governmental             Director, ACC-Warren, needs to require that
functions, such as disciplining DoD employees,                contracting officials obtain training on inherently
and to have organizational conflicts of interest,             governmental functions and organizational
such as helping prepare requirements for the                  conflicts of interest requirements, needs to review
follow-on contract that the contractor bid on and             the contracting officers’ performance, and establish
won. This occurred because the officials only                 a process that will gather and analyze data from the
cursorily addressed statutory and regulatory                  JLI follow-on contract so that tasks can be
requirements for preventing performance of                    converted to fixed-price work where appropriate.
inherently governmental functions and
organizational conflict of interests, and only one            Management Comments and
Government employee was assigned overseas to                  Our Response
the task of overseeing a multimillion dollar                  The Commander, Marine Corps Systems
contract in three different foreign countries. This           Command—who also responded on behalf of the
greatly increased the risk for potential waste or             Program Manager, JPO MRAP—and the Executive
abuse on the contract.                                        Director, ACC-Warren through Army Materiel
                                                              Command, agreed with our recommendations. The
In addition, the contracting officer did not                  comments are responsive to the intent of the
adequately support the need to use a time-and-                recommendations. Please see the
material type of contract for the follow-on JLI               recommendations table on the back of this page.
effort, valued at $285.5 million. ACC-Warren
officials did not use data from the initial contract to
help structure appropriate portions of the contract
as fixed price. This occurred because ACC-

                                                          i
Report No. D-2011-081 (Project No. 2009-D000CK-0100.002)            July 11, 2011

Recommendations Table

        Management                  Recommendations         No Additional Comments
                                   Requiring Comment               Required
Commander, Marine Corps                                    A.1
Systems Command
Program Manager, Joint Program                             A.2
Office, Mine Resistant Ambush
Protected Vehicle Program
Executive Director, Army                                   A.3, B
Contracting Command-Warren
TACOM Principal Assistant                                  A.4
Responsible for Contracting




                                          ii
Table of Contents
Introduction	                                                                 1      


      Audit Objectives                                                        1

      Background                                                              1      

      Internal Controls Require Management Attention for Joint Logistics 

          Integrator Services                                                 3


Finding A. Contractor Performance Included Inherently Governmental 

            Functions and Posed Organizational Conflicts of Interest          4


      Criteria                                                                4     

      Contractor Performance of Inherently Governmental Functions             6

      Contractor Performance Posed Organizational Conflicts of Interest       9

      Inherently Governmental Functions and Organizational Conflicts of 

           Interest Guidance Was Not Followed                                11 

      Joint Program Office MRAP Forward Organizational Structure             13 

      Peer Reviews                                                           17      

      Summary                                                                18     

      Management Comments on the Finding and Our Response                    19 

      Recommendations, Management Comments, and Our Response                 21 


Finding B. Use of Time-and-Materials Contract Type Should Be Limited         24 


      Time-and-Materials Criteria                                            24         

      SAIC’s Support as the Joint Logistics Integrator                       24 

      Contract Oversight Requires Additional DoD Personnel                   26 

      Summary                                                                27     

      Management Comments on the Finding and Our Response                    27 

      Recommendation, Management Comments, and Our Response                  28 


Appendices

      A. 	Scope and Methodology                                              29 

             Prior Coverage                                                  30 

      B. Examples of SAIC Performing Inherently Governmental Functions       31 

      C. Duplicated Efforts in MRAP Vehicle De-processing 	                  33 


Management Comments

      U.S. Marine Corps Systems Command                                      34 

      Army Materiel Command                                                  38

Introduction
Audit Objectives
The overall objective was to determine whether the Mine Resistant Ambush Protected
(MRAP) vehicle program and contracting officials were adequately supporting the
MRAP vehicle maintenance requirements and appropriately awarding and administering
maintenance contracts. This is the third in a series of reports addressing the maintenance
support for MRAP vehicles. The first report addressed field service representative and
instructor services procured to support MRAP vehicle maintenance.1 The second report
addressed the award of the instructor services contract to TJ FIG.2 For this report, we
limited our scope to the Joint Logistics Integrator (JLI) contracts awarded to Science
Applications International Corporation (SAIC) and Jacobs Technology. See Appendix A
for a discussion of the audit scope and methodology, and prior coverage.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires:

        thorough audits…to identify potential waste, fraud, and abuse in the performance of (1)
        Department of Defense contracts, subcontracts, and task and delivery orders for the
        logistical support of coalition forces in Iraq and Afghanistan; and (2) Federal agency
        contracts, subcontracts, and task and delivery orders for the performance of security and
        reconstruction functions in Iraq and Afghanistan.

We reviewed two contracts: the first contract was awarded to Jacobs Technology and
subcontracted to SAIC, and the second contract was awarded to SAIC for JLI services to
support the Joint Program Office (JPO) MRAP program (JPO MRAP). We visited
Southwest Asia to meet with Government and contractor personnel to discuss their role in
supporting JPO MRAP.

Background
MRAP vehicles are multi-mission platforms capable of mitigating the effects of
improvised explosive devices, mines, and small arms fire (see Figure 1 for an example of
an MRAP vehicle). In November 2006, JPO MRAP was established to manage the
acquisition of MRAP vehicles to meet the needs of all of the Services. Marine Corps
Systems Command (MCSC) manages JPO MRAP.

On May 2, 2007, the Secretary of Defense designated the MRAP program as the highest
priority DoD acquisition program and stated that all options to accelerate the production


1
  DoD IG Report No. D-2010-068, “Government Oversight of Field Service Representative and Instructor
Services in Support of the Mine Resistant Ambush Protected Vehicle Program,” June 17, 2010
2
  DoD IG Report No. D-2011-036, “Competition Should be Used for Instructor Services for the Mine
Resistant Ambush Protected Vehicles,” February 3, 2011


                                                   1

and fielding of the MRAP capability to the theater should be identified, assessed, and
applied where feasible. To reduce the burden on units receiving MRAP vehicles, JPO
MRAP established a forward presence in Iraq, Afghanistan, Qatar, and Kuwait.
According to the Joint Supportability Plan, the JPO MRAP Forward includes personnel
from the JPO, JLI, and MRAP vehicle original equipment manufacturers to form an
integrated team to stand-up, coordinate, and execute JPO MRAP operations in theater.

         Figure 1. Cougar H 4×4 Mine Resistant Ambush Protected Vehicle
                 on the Off-Road Course at Camp Taqaddum, Iraq




                              Source: DefenseImagery.mil

Joint Logistics Integrator Support
The JPO MRAP requires JLI support that includes the following broad categories:

      maintenance,
      parts inventory control management,
      battle damage assessment and repair,
      de-processing and warranty spares management,
      integrated logistics support,
      joint logistics operations,
      fielding services,
      theater personnel management,
      configuration management,
      transportation, and
      logistics analyses.

According to the Joint Supportability Plan, JLI support provides an operational view of
all theater logistics efforts associated with the MRAP vehicle program, including
oversight and management of fielding, training, and sustainment operations.
Additionally, JLI support provides the JPO MRAP Forward with the capability to
perform logistics engineering analysis and provides insight into MRAP vehicle fleet
readiness and sustainment.




                                            2

The JLI support also includes development and execution of standard operating
procedures (SOPs) for all functions of fielding, including reception, de-processing,
inventory management, storage, maintenance inspection, hand-off, and postfielding
support; recommendation of changes to existing logistics documentation based on lessons
learned and proven processes; and collection and management of documents and data for
the JPO MRAP.

Contracts Awarded for Joint Logistics Integrator Effort
On November 30, 2007, Army Contracting Command (ACC)-Warren3 officials awarded
contract W56HZV-04-A-0005, delivery order 0256—the initial JLI effort (JLI 01)—to
Jacobs Technology.4 The period of performance was from December 3, 2007, through
June 10, 2009, and the total value of the contract was $193.4 million. On May 4, 2009,
ACC-Warren officials awarded contract W56HZV-09-A-0003, delivery order 0001
(JLI 02), to SAIC for continued MRAP JLI services. The period of performance
extended from May 4, 2009, through May 3, 2011, and the total value of the contract was
$285.5 million.

ACC-Warren awarded both JLI contracts against blanket purchase agreements (BPAs) as
time-and-materials (T&M) contracts. The JLI contracts used labor categories and rates
from General Services Administration (GSA) multiple award schedule contracts.

Internal Controls Require Management Attention for
Joint Logistics Integrator Services
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the award and administration of the JLI contracts. Specifically, JPO
MRAP and ACC-Warren officials allowed the contractor to perform inherently
governmental functions and to have organizational conflicts of interest while performing
the JLI functions. Furthermore, the contracting officer did not adequately support the
decision to award a T&M contract type for procuring JLI services. We will provide a
copy of the report to the senior official responsible for internal controls in the JPO MRAP
and ACC-Warren.




3
  The TACOM Contracting Center was redesignated as the Army Contracting Command-Warren on

January 19, 2011. 

4
  Jacobs Technology was previously known as Sverdrup Technology.



                                               3

Finding A. Contractor Performance Included
Inherently Governmental Functions and
Posed Organizational Conflicts of Interest
Contracting officers at ACC-Warren and JPO MRAP senior managers (the officials)
allowed the JLI support contractor to exert controls over functions that should have
remained under the authority of DoD. The officials inappropriately allowed the
contractor to direct DoD personnel, participate in disciplinary actions of DoD personnel,
prepare and sign SOPs, and participate in other situations where contractor employees
could be assumed to be DoD employees or representatives. In addition, the officials
allowed the contractor to have organizational conflicts of interest, such as participating in
the preparation of the requirements for the contract that was subsequently awarded to the
contractor and monitoring its own performance. This occurred because the officials only
cursorily addressed statutory and regulatory requirements for preventing performance of
inherently governmental functions and organizational conflicts of interest, and only one
Government employee was assigned overseas to the task of overseeing a multimillion
dollar contract in three different foreign countries. As a result, the officials increased the
risk for potential waste or abuse on the contract and did not ensure that the contract for
JLI services, valued at $285.5 million, was in the best interest of DoD.

Criteria
Public Law 108-375, “The National Defense Authorization Act for Fiscal Year 2005,”
section 804, “Contractor Performance of Acquisition Functions Closely Associated with
Inherently Governmental Functions,” October 28, 2004 (the law), amended section 2382,
title 10, United States Code, by placing restrictions on the head of an agency when
entering into a contract for the performance of acquisition functions closely related to
inherently governmental functions. The law also states that in order for an agency to
enter into such a contract, the contracting officer must address any potential
organizational conflicts of interest in the performance of the functions under the contract.
Further, the law refers to the Federal Acquisition Regulation (FAR) for additional
guidance.

FAR subpart 2.1 defines an inherently governmental function as a function that is so
intimately related to public interest as to mandate performance by Government
employees. These functions include activities that require either the exercise of
discretion in applying Government authority or the making of value judgments in
decisions for the Government.

FAR subpart 7.1, “Acquisition Plans,” includes guidance to prevent the Government from
entering into contracts for inherently governmental functions. Specifically, FAR 7.103,
“Agency-Head Responsibilities,” states that the agency head or a designee must prescribe
procedures for ensuring that no purchase request is initiated or contract entered into that
would result in the performance of an inherently governmental function by a contractor



                                              4

and that all contracts or orders are adequately managed to ensure effective official control
over contracts.

FAR subpart 7.5, “Inherently Governmental Functions,” forbids the use of contracts for
the performance of inherently governmental functions and provides examples of
functions to be treated as inherently governmental; one of which is the direction and
control of Federal employees. In addition, some functions, while not considered to be
inherently governmental, may approach being inherently governmental due to their
nature, or the manner in which the contractor performs the contract. FAR 7.503
provides 19 examples of functions that may approach being inherently governmental,
2 of which being contractors providing assistance in the development of the statement of
work (SOW) and contractors participating in any situation where it might be assumed
that they are agency employees or representatives.

FAR subpart 2.1 defines organizational conflicts of interest as situations which arise
where, because of activities or relationships with other persons, a person is unable or
potentially unable to render impartial assistance or advice to the Government, or the
person’s objectivity in forming the contract work is or might be otherwise impaired, or a
person has an unfair competitive advantage.

FAR subpart 9.5 directs contracting officers to take measures to detect and avoid actual
and potential organizational conflicts of interest. Specifically, FAR 9.504, “Contracting
Officer Responsibilities,” requires the contracting officer to identify and evaluate
potential organizational conflicts of interest as early in the acquisition process as possible
and avoid, neutralize, or mitigate significant potential conflicts before contract award. In
addition, FAR 9.505 states that the exercise of common sense, good judgment, and sound
discretion is required in the decision of whether a significant potential conflict exists and,
if it does, the development of an appropriate means for resolving it. The two underlying
principles are preventing unfair competitive advantage and preventing the existence of
conflicting roles that might bias a contractor’s judgment.

Also, FAR 9.505-2 (b)(1) states that if a contractor assists in preparing a work statement
to be used in competitively acquiring a system or services—or provides material leading
directly, predictably, and without delay to such a work statement—that contractor may
not supply major components of the system, or the services unless (a) it is the sole source,
(b) it has participated in the development and design work, or (c) more than one
contractor has been involved in preparing the work statement. In addition, FAR
9.505-2(b)(2) states that when contractor assistance is necessary for the preparation of
work statements, the contractor might often be in a position to favor its own products or
capabilities. The FAR specifically states that to overcome the possibility of bias,
contractors are prohibited from supplying a system or services acquired on the basis of
work statements growing out of their services, unless excepted in FAR 9.505-2 (b)(1).




                                              5

Contractor Performance of Inherently Governmental
Functions
The officials allowed the contractor to perform inherently governmental functions, such
as directing Government personnel, participating in disciplinary actions of government
personnel, and issuing SOPs that covered Government personnel and activities. In
addition, the officials allowed the contractor to perform functions that were closely
associated with inherently governmental functions. Appendix B contains more examples
of inherently governmental functions performed by SAIC personnel.

Direction of Government Personnel
Contractor personnel directed Government personnel in Iraq. On one occasion, the Red
River Army Depot (RRAD) Liaison Officer (Government employee) was directed to
report to the Assistant Program Manager, JPO MRAP Forward, Operation Iraqi Freedom
(contractor employee), rather than to the Program Manager, JPO MRAP Forward
(Government employee). In an e-mail to the
                                                           The assistant program
program manager, the assistant program manager
                                                            manager (contractor
(contractor employee) stated that he and the site
                                                        employee) stated that he and
leads must be perceived as in charge of the MRAP
                                                            the site leads must be
vehicle program. The assistant program manager
                                                        perceived as in charge of the
implied that he was part of the recognized chain of
                                                           MRAP vehicle program.
command and that the program manager should not
issue orders to the RRAD Liaison Officer, thereby circumventing the assistant program
manager’s authority. The assistant program manager advised the program manager that
the RRAD Liaison Officer could ask the program manager for approval on select items as
long as the program manager did not issue instructions directly to the RRAD Liaison
Officer. By making such statements to the program manager, the assistant program
manager directed a DoD employee, which should have been done only by DoD
personnel.

In another instance, the Assistant Program Manager, JPO MRAP Forward, Operation
Iraqi Freedom, communicated to various DoD officials, including the 402nd Army Field
Support Brigade (AFSB)5 battalion commander, that DoD personnel were not to contact
the battalion commander directly but were to address all RRAD actions to the assistant
program manager. This further demonstrates how the assistant program manager exerted
control over DoD personnel.

Contractor Involvement in Government Disciplinary Actions
The Assistant Program Manager, JPO MRAP Forward, Operation Iraqi Freedom
(contractor employee) was involved in the disciplinary actions involving DoD personnel.
In an e-mail, the RRAD Liaison Officer (Government employee) referred to the battalion


5
  The 402nd AFSB is the largest brigade in Iraq. Its mission is to integrate acquisition, logistics, and
technology for Army Materiel Command, to protect, equip, and sustain joint/coalition forces in support of
Operation Iraqi Freedom. One of the 402nd AFSB’s efforts is soldier survivability, which involves MRAP
training and sustainment operations.


                                                    6

commander for direction concerning an incident involving a DoD employee. The
battalion commander requested the Assistant Program Manager, JPO MRAP Forward,
Operation Iraqi Freedom (contractor employee) and the Taji Regional Support Activity
(RSA) site lead (Government employee) to recommend whether the employee should
receive a letter of reprimand. The battalion commander stated that he would support their
decision, which was to pursue a letter of reprimand. The assistant program manager
asked the Taji RSA site lead to draft a letter of reprimand, which the assistant program
manager would then review. The assistant program manager e-mailed the battalion
commander and RRAD Liaison Officer to apprise them of this action. Although the
battalion commander had requested the assistant program manager’s recommendation, it
was not appropriate for the assistant program manager to make recommendations
concerning a DoD employee.

We discussed the assistant program manager’s involvement in the disciplinary actions
with the 402nd AFSB commander, the ultimate decision authority. The commander stated
that AFSB personnel were reviewing the contractor’s disciplinary actions and recognized
that the assistant program manager had acted inappropriately and should not have been
involved in the disciplinary matters. The commander also stated the 402nd AFSB has
since restructured the chain of command for disciplinary actions toward DoD personnel.

Contractor Signed Standard Operating Procedures
Contractor employees prepared and signed various SOPs, which directed DoD personnel,
for the MRAP vehicle program. The Deputy Program Manager, JPO MRAP Forward
(contractor employee) signed the SOP for JPO MRAP Forward Operation Iraqi Freedom.
The SOP stated that the procedures contained within the document specified in writing
what should be done, how it should be done, when it was to be done, and where and by
whom the procedures should be done. The deputy program manager also signed the SOP
for Sustainment Operations and Material Management Operations for the JPO MRAP
Forward. This SOP provided procedures on management oversight in the maintenance
and sustainment operations of all RSAs for the MRAP vehicle program. In addition, the
Assistant Program Manager, JPO MRAP Forward, Operation Iraqi Freedom (contractor
employee) signed the External SOP for the Operation Iraqi Freedom RSAs on behalf of
the Program Manager, JPO MRAP Forward (Government employee). This SOP
provided procedures on maintenance and equipment support to Multi-National Corps –
Iraq units. Specifically, it provided guidelines for turn-in and receipt of equipment for all
RSAs and guidelines for functions that must be performed by RSA site leads
(Government personnel). Although a contractor may assist in preparing SOPs concerning
DoD operations, they should not sign the SOPs on behalf of DoD officials. The contract
specifically stated that:

       No Contractor employee shall hold him or herself out to be a Government employee,
       agent, or representative. No Contractor employee shall state orally or in writing at any
       time that he or she is acting on behalf of the Government. [emphasis added]

By signing the SOPs, contractor employees appeared to be directing the day-to-day
operations of DoD personnel involved in the JPO MRAP Forward. The officials stated
that if sufficient Government personnel had been available at the time, they could have


                                                  7

developed the SOPs. While we agree that the lack of Government personnel would
explain the contractor employees developing the SOPs, it does not provide a sufficient
rationale for the program manager not to sign the SOPs.

Closely Associated Inherently Governmental Functions
The contractor also performed functions that FAR 7.503 lists as approaching inherently
governmental, such as participating in the development of the SOW and situations where
contractor employees may be assumed to be DoD employees or representatives. For
example, on December 7, 2009, the audit team met with the ACC-Warren Chief of
Armaments Contracting Group, contracting officer, and contracting specialist, where the
contracting specialist stated that the contractor and JPO MRAP officials worked together
to prepare the contract requirements for the JLI 02 SOW and the contracting officer
agreed. Furthermore, on December 7, 2009, we asked the Product Manager for Logistics
and Sustainment, JPO MRAP, about the contractor’s involvement in the preparation of
the SOW and he confirmed that JPO MRAP officials discussed the contract requirements
in the SOW with the contractor. Therefore, contractor personnel participated in the
preparation of the requirements for the contract that they bid on and were awarded.

In addition, contractor employees were involved in situations where they might be
assumed to be DoD employees or representatives. On many occasions, contractor
employees gave direction on behalf of the Program Manager, JPO MRAP Forward
(Government employee). According to documentation obtained, the Assistant Program
Manager, JPO MRAP Forward, Operation Iraqi Freedom (contractor employee) stated
that contractor employees “are empowered to coordinate actions across the JPO
                                      [Forward, Operation Iraqi Freedom] on behalf of”
       The assistant program
                                      the program manager. As stated previously, the
        manager obtained a
                                      contract specifically prohibited the contractor from
   Government employee’s Leave
                                      acting on behalf of the Government. In addition to
     and Earnings Statement, to
                                      using the phrase “on behalf of” the program
    provide input to Government
                                      manager when directing SAIC employees, the
      officials on decisions for
                                      assistant program manager used the same phrase
     promotion on behalf of the
                                      when providing direction and approval over DoD
         program manager.
                                      personnel. For instance, the assistant program
manager approved relocation and increased the requirements of RRAD personnel on
behalf of the program manager. In another instance, the assistant program manager
obtained a Government employee’s Leave and Earnings Statement to provide input to
Government officials on decisions for promotion on behalf of the program manager.
Furthermore, in Kuwait, the Deputy Program Manager, JPO MRAP Forward (contractor
employee) stated that he used the phrase “on behalf of” the program manager when
executing events that occurred regularly, such as informing Government employees to
correct actions and follow proper standards. The deputy program manager stated that
employees could not differentiate between a Government employee and a contractor
employee.

By assisting in the development of the requirements for the JLI 02 contract that was
awarded to the contractor and participating in situations where contractor employees may


                                             8

be assumed to be DoD personnel, contractor employees performed closely associated
inherently governmental functions, as described in the FAR. The closer these contract
services come to approaching inherently governmental functions, the greater the risk of
the contractor influencing DoD decisions based on the contractor’s work, which has the
potential of resulting in decisions that are not in the best interest of the DoD.

Contractor Performance Posed Organizational Conflicts
of Interest
The officials allowed the contractor to have organizational conflicts of interest while
performing JLI functions. First, the contractor provided input on the JLI requirements for
the JLI 02 SOW while working as a subcontractor under the JLI 01 contract. Second, the
contractor was responsible for monitoring the MRAP program, including management
and logistics areas, while providing maintenance services. The contractor’s performance
of these functions violates the two underlying principles in the acquisition process:
preventing unfair competitive advantage and preventing the existence of conflicting roles
that might bias a contractor’s judgment.

Potential Competitive Advantage
The contractor provided input on JLI requirements for the SOW of the JLI 02 contract,
which was subsequently awarded to the contractor. Specifically, while providing
services under the JLI 01 contract, the contractor
                                                               While providing services
worked with JPO MRAP officials to develop
                                                              under the JLI 01 contract,
requirements for the JLI 02 contract. These
                                                             the contractor worked with
requirements were included in the solicitation of the
                                                               JPO MRAP officials to
JLI 02 BPA for the acquisition of JLI and Operational
                                                              develop requirements for
Readiness Services for JPO MRAP. The solicitation
                                                                 the JLI 02 contract.
of the JLI 02 BPA stated that the JLI SOW was the
major portion of the effort and referred to an attachment that was the draft SOW for the
JLI 02 contract.6 FAR 9.505-2(b)(1) and (2) forbid contractors who assist in preparing
work statements from providing those services to the Government as the contractor may
be biased to favor its own products or capabilities, unless the contractor is the sole
source, the contractor has participated in the development and design work, or more than
one contractor has been involved in preparing the work statement.

The JLI 02 BPA acquisition process did not meet the exceptions specified in
FAR 9.505-2(b)(1). First, the JLI 02 BPA was solicited through the GSA Schedule
Program; BPAs and orders placed against contracts awarded by GSA are considered to be
issued using full and open competition. Second, the GSA Schedule Program provides a
simplified process for obtaining commercial services, that is, services that can be offered


6
  Almost all of the requirements stated in the draft JLI 02 SOW (an attachment in the solicitation of the JLI
02 BPA) were included in the actual JLI 02 SOW that was used for the award of the JLI 02 contract.
Although the actual JLI 02 SOW had additional requirements, 80 of 84 sections of the requirements stated
in the draft JLI 02 SOW and the actual JLI 02 SOW were verbatim. Therefore, we concluded that the
contractor provided input that was included in the solicitation of the JLI 02 BPA.


                                                      9

and sold competitively in the commercial marketplace based on market prices for specific
tasks and under standard commercial terms and conditions. The JLI 02 BPA was
solicited for commercial services, which by definition, would not require development
and design work. Third, only one contractor was involved in the preparation of the work
statement.

The JPO MRAP may have provided the contractor an unfair competitive advantage in the
solicitation process for the JLI 02 BPA by
                                                             The JPO MRAP may have
allowing the contractor to provide input on
                                                         provided the contractor an unfair
requirements. Although the JLI 02 BPA was
                                                           competitive advantage in the
considered a competitive award, the contractor
                                                         solicitation process for the JLI 02
was the only bidder for the contract. The fact
                                                         BPA by allowing the contractor to
that the contractor participated in developing the
                                                          provide input on requirements.
requirements could have skewed the competition
in favor of itself, intentionally or not. Consequently, the Government may have increased
its risk of not getting the best value for JLI services.

Conflicting Roles
Contractor employees monitored their own performance while executing the JLI 02
contract. The JLI 02 SOW required the contractor to perform maintenance services and
at the same time manage theater personnel. Specifically, the SOW for the JLI 02 contract
stated:

       The JLI portion of this effort includes logistics and engineering services as well as
       services for JPOs oversight and management . . . Additionally, the JLI will . . . provide
       timely insight into MRAP fleet readiness and sustainment . . . This SOW establishes
       requirements for Contractor services to include managerial reporting, problem
       discovery/resolution, and the execution of necessary actions to assure MRAP field
       readiness for the soldier in the most immediate cost effective manner as possible.
       Services will be provided in the following broad categories of Maintenance Services,
       Parts Inventory and Warehousing . . ., Parts Procurement, Integrated Logistics Support,
       Joint Logistics Operations, Fielding Services, Training Services, Theater Personnel
       Management, . . . Data Management, Transportation, and various Logistics Analyses. . .
       Contractor logistic services are to sustain JPO MRAP managed vehicles, equipment, and
       subordinate sub-systems. [emphasis added]

According to the SOW, contractor employees were to provide transportation, de-
processing, fielding, sustainment, and component repair, as well as data collection and
analysis on MRAP logistic activities as part of the JLI requirement for Kuwait and Iraq.
By contracting for services to provide MRAP vehicle program analysis and oversight,
along with maintenance of the MRAP vehicles to the same contractor, the contracting
officer placed the Government in a situation where organizational conflicts of interest
may occur.

For example, a contractor employee provided advice to JPO MRAP officials regarding
personnel requirements and subsequently the number of Government personnel
performing sustainment maintenance decreased, while the number of contractor
employees providing sustainment maintenance increased. The Deputy Program



                                                  10

Manager, JPO MRAP Forward (contractor employee) stated that he provided
recommendations of personnel needs to the Program Manager, JPO MRAP Forward
                                         (Government employee) based on mission
  Because the JLI contract allowed       requirements from the Army and the Marine
      the contractor to perform          Corps. The deputy program manager stated that
   maintenance services while also       the MRAP Vehicle Sustainment Facility initially
     monitoring the program, any         required 109 RRAD mechanics; however, he also
   recommendation concerning the         stated that, due to several disciplinary issues with
    number and type of personnel         Government personnel, the requirement decreased
      may have been skewed to            to 60 personnel, resulting in the removal of 49
    generate a larger requirement        Government mechanic positions. On the other
      for contractor employees.          hand, the requirement for the contractor’s
mechanics increased by 40. Because the JLI contract allowed the contractor to perform
maintenance services while also monitoring the program, any recommendation
concerning the number and type of personnel may have been skewed to generate a larger
requirement for contractor employees. Thus, contractor employees may have been
unable to render impartial services, as illustrated in this example. In addition, in
Appendix C, we describe a situation where the contractor duplicated the efforts of
Government personnel, which may have been the result of the contractor’s dual role of
providing program analysis and oversight while providing maintenance services.

Inherently Governmental Functions and Organizational
Conflicts of Interest Guidance Was Not Followed
The FAR prescribes procedures for the officials to preclude the contractor from
performing inherently governmental functions and to avoid and mitigate possible
organizational conflicts of interest when awarding contracts. However, the officials did
not follow FAR guidance to prevent the contractor from performing inherently
governmental functions and having organizational conflicts of interest.

Performance of Inherently Governmental Functions Was Not
Prevented
The officials did not adequately prevent the contractor from performing inherently
governmental functions. Although the contract specifically states that the contractor
“shall not perform any inherently Government actions,” as we have discussed previously,
the contractor performed functions that should have been performed by Government
personnel. As stated in FAR 7.103, the agency head or designee had to ensure that the
requirements of the contract did not result in the performance of inherently governmental
functions. In addition, the Army Federal Acquisition Regulation Supplement 5107.503,
“Policy,” requires the officials to use the “Request for Services Contract Approval” form,
dated June 17, 2009. This form includes a checklist for functions that are identified as
inherently governmental, closely associated with inherently governmental, and personal
services.

We asked the Deputy Product Manager for Logistics, JPO MRAP (Government
employee) what procedures were used to ensure the requirements in the SOW would not


                                             11

result in inherently governmental functions. He stated that a legal review was conducted
before contract award, in which the appropriateness of contract requirements was
identified, to ensure that the requirements would not result in inherently governmental
functions. According to the contracting officer, the JPO MRAP officials submitted three
worksheets, along with the Request for Services Contract Approval, to the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) for approval of the
contract award. These worksheets included inherently governmental and closely
associated with inherently governmental functions
                                                             Had there been adequate
checklists, which were similar to the Request for
                                                             surveillance, Government
Services Contract Approval checklist from June 17,
      7                                                           officials may have
2009. The worksheets asserted that there were no
                                                               prevented contractor
inherently governmental functions or closely
                                                            employees from performing
associated with inherently governmental functions
                                                                 functions that were
required for this contract. However, as noted in FAR
                                                             inherently governmental.
subpart 2.1, the “inherently governmental function” 

definition is a policy determination, not a legal determination, and our audit found that 

contractor personnel performed inherently governmental and closely associated with 

inherently governmental functions. 


In addition, the officials did not provide sufficient Government surveillance, which is 

fundamental in contracts that include a contractor’s performance of functions that are 

closely associated with inherently governmental functions. Had there been adequate 

surveillance, Government officials may have prevented contractor employees from

performing functions that were inherently governmental. See Finding B for discussion 

on insufficient Government surveillance. 


Agencies are responsible for ensuring that the performance of inherently governmental 

functions is addressed before issuing a solicitation. It is also essential that after the award 

of a contract, agencies take steps to protect public interest by playing an active and 

informed role in contract administration, which ensures that Government policies are 

implemented. Such participation should be appropriate to the nature of the contract and 

should leave no doubt that the contract is under the control of Government officials. 


Potential or Actual Organizational Conflicts of Interest Were Not
Assessed
The contractor’s performance as the JLI posed organizational conflicts of interest because
the contracting officer did not assess the SOW for the JLI 02 contract to identify whether
an actual or potential organizational conflict of interest existed before contract award, as
required by FAR 9.504. The contracting officer left the responsibility of assessing
organizational conflict of interest to the contractor. The BPA for the JLI 02 contract
stated that the contractor must warrant that there were no relevant facts or circumstances


7
 At the time of the contract award, a previous version of the checklist, dated August 8, 2008, was used.
Both checklists contain similar items for inherently governmental and closely associated inherently
governmental functions.



                                                    12

to indicate an organizational conflict of interest and that if an actual or potential
organizational conflict of interest was discovered after contract award, the contractor had
the responsibility to notify the contracting officer of the potential conflict, recommend an
alternate tasking approach that would avoid the potential conflict, and present a conflict
of interest mitigation plan to the Government.

The contracting officer obtained the contractor’s assessment for organizational conflicts
of interest. According to the contractor’s assessment, the SAIC Vice President/Business
Unit Contracts Director warranted that to the best of his knowledge there were no
relevant facts or circumstances that could have created organizational conflicts of
                                       interest. The contractor did not identify current
   The contracting officer left the    conflicts for the BPA and stated that the contractor
     responsibility of assessing       ensured the contract would not create a future
     organizational conflicts of       conflict of work. The contracting officer could
     interest to the contractor.       provide only the contractor’s assessment of
organizational conflicts of interest as support for an organizational conflict of interest
assessment. Further, during a meeting with the ACC-Warren Chief of Armaments
Contracting Group, contracting officer, and contracting specialist on December 7, 2009,
the contracting officer stated that ACC-Warren officials did not assess the JLI 02 contract
for organizational conflicts of interest; however, they were in the process of assessing
organizational conflicts of interest on new procurements. Ultimately, it is the contracting
officer’s responsibility to assess organizational conflicts of interest, according to FAR
9.504; however, the contracting officer relied solely on the contractor to assess the SOW
to identify potential or actual organizational conflicts of interest.

Joint Program Office MRAP Forward Organizational
Structure
JPO MRAP officials initially created an organizational structure for theater operations
that put contractor employees in key management positions in Kuwait, Iraq, and
Afghanistan. This structure gave the contractor authority over DoD employees, which
enabled the contractor to perform inherently governmental functions and allowed
organizational conflicts of interest.

Contractor Management Roles and Responsibilities
Contractor employees were assigned to key management positions within the program,
including the Deputy Program Manager, JPO MRAP Forward; the Assistant Program
Manager, JPO MRAP Forward, Operation Iraqi Freedom; and the Assistant Program
Manager, JPO MRAP Forward, Kuwait.

As Figure 2 shows, contractor employees held key management positions directly under
the command of the Program Manager, JPO MRAP Forward, who was the primary
Government official responsible for the MRAP vehicle program within Kuwait, Iraq, and
Afghanistan.




                                             13

             Figure 2. JPO MRAP Forward Organizational Structure as of August 2009
                                                Government Employees      Contractor Employees




                                                         Program Manager  



                             Deputy Program 
                             Manager (SAIC) 



              Assistant Program                            Assistant Program                        Assistant Program 
                                                         Manager, Operation                        Manager, Operation 
              Manager, Kuwait 
                                                         Iraqi Freedom (SAIC)                    Enduring Freedom (SAIC) 
                    (SAIC) 




   TQ           LIBERTY             BALAD              SPEICHER         MOSUL             TAJI            KALSU              TALLIL
Site Lead       Site Lead          Site Lead           Site Lead       Site Lead       Site Lead         Site Lead          Site Lead



       MRAP vehicle program officials provided us with the job descriptions for the Deputy
       Program Manager, JPO MRAP; the Assistant Program Manager, Operation Iraqi
       Freedom; and the Assistant Program Manager, Kuwait.8 The Deputy Program Manager
       served as the principal advisor for the Program Manager, JPO MRAP Forward. The
       Deputy Program Manager’s responsibilities included developing, coordinating,
       synchronizing, and monitoring implementation of all facets of the JPO MRAP Forward
       operations through the assistant program managers and theater headquarters staff.
       Additionally, the deputy program manager was responsible for management oversight of
       over 1,600 personnel at more than 50 sites throughout Kuwait, Iraq, and Afghanistan.
       The Assistant Program Manager, Operation Iraqi Freedom, job description required the
       individual to provide management for all locations in Operation Iraqi Freedom. Duties of
       both the deputy program manager and the Assistant Program Manager, Operation Iraqi
       Freedom, included developing objectives, strategies, and plans for the program;
       managing day-to-day operations in a complex and diverse combat environment;
       realigning staff functions; and managing and guiding the work-force while representing
       the JPO MRAP Forward. The job description of the Assistant Program Manager,
       Kuwait, required the individual to be responsible for all JLI and JPO MRAP Forward
       operations in Kuwait. Duties of the Assistant Program Manager, Kuwait, included
       providing analysis, assessments, logistics expertise, and coordination for the fielding and
       sustainment of vehicle systems.


       8
        We did not obtain the job description for the Assistant Program Manager, Operation Enduring Freedom,
       Afghanistan, because we did not visit Afghanistan.


                                                                   14

Organizational Structure Enabled Inherently Governmental
Functions and Allowed Organizational Conflicts of Interest
JPO MRAP officials established the deputy program manager and assistant program
manager positions to provide management over Government and contract personnel
conducting JPO MRAP Forward operations in theater. However, the JPO MRAP
officials formed an organizational structure that included contractor employees in key
management positions directly under the command of the Program Manager, JPO MRAP
Forward. The deputy program manager and assistant program managers were the highest
ranking JPO MRAP Forward officials for their respective countries. From our review of
the requirements of the key management positions, we determined that by using
contractor personnel in these positions, the officials allowed the contractor to have a large
span of control over JPO MRAP Forward operations. As such, the authority provided by
the organizational structure enabled the contractor to perform inherently governmental
functions and allowed organizational conflicts of interest to exist.

The Deputy Product Manager for Logistics, JPO MRAP (Government employee) stated
that site leads provided Government surveillance at each RSA; however, he was not able
to provide supporting documentation to show evidence of their surveillance over
contractor employees. In addition, we found no evidence to demonstrate that RSA site
leads conducted surveillance over contractor employees during our site visit to Southwest
Asia.

Further, the Military Deputy Program Manager, JPO MRAP, stated that the contractor
was not directing Government personnel without ultimate authority from a Government
representative, specifically the Program Manager, JPO MRAP Forward. The
                                 organizational charts provided by JPO MRAP Forward
    The program manager
                                 showed that the program manager was the only
  was the only Government
                                 Government employee overseeing operations in Kuwait,
     employee overseeing
                                 Iraq, and Afghanistan and that all positions directly under
     operations in Kuwait,
                                 him were filled by contractor employees, which we
    Iraq, and Afghanistan.
                                 corroborated during our visit to theater. We do not
believe that one Government employee had the ability to effectively oversee over 1,600
personnel at more than 50 sites in three foreign countries. Consequently, this greatly
increases the risk of waste and abuse on the contract.

Updated JPO MRAP Forward Organizational Structure
During our visit to Kuwait, the audit team communicated to the Program Manager, JPO
MRAP Forward, our concern that he was the only Government employee holding a key
management position, overseeing the entire MRAP operation in Kuwait, Iraq, and
Afghanistan. The program manager stated that the “Office of the Secretary of Defense
wanted the warfighter fight the war” and there were no DoD civilians available at the
time; however, he was planning to replace contractor employees in theater who were in
key management positions with Government personnel. Furthermore, throughout the
audit, the Deputy Program Manager, JPO MRAP (Government employee) emphasized
that the MRAP vehicle program was an urgent program and the program office was under
time, personnel, and organizational constraints.


                                             15

      Figure 3. JPO MRAP Forward Organizational Structure as of July 2, 2010

                                                             Director 


                                  Special Projects                               Deputy Director 
                                                                                    Kuwait




                  MRAP                 Theater Officer in                Theater Officer in            Theater Officer in 
              Sustainment              Charge Operation                  Charge Operation                   Charge 
             Facility Kuwait            Iraqi Freedom                    Enduring Freedom               Oman/Bahrain  


                                                        Site Lead                          Site Lead 
                                                          Balad                             Bagram
     COR                   Quality 
                          Assurance                     Site Lead                          Site Lead 
                                                         Alasad                          Leatherneck


                                                        Site Lead                          Site Lead
                                                         Liberty                            Jalabad


                                                       Site Lead                           Site Lead 
                                                       Speicher                            Kandahar


                                                        Site Lead                         Site Lead
                                                          Tallil                        Camp Spamm



Subsequent to the audit team’s visit, JPO MRAP officials have stated that contractor
employees have been replaced by Government personnel. JPO MRAP officials provided
the audit team with the latest organizational chart for the JPO MRAP Forward as of July
2010 (see Figure 3 above). This organizational chart shows Government personnel in all
positions, including those directly under the director9 and theater officers in charge.10
Contractor personnel were not included as part of the JPO MRAP Forward organizational
structure. When we inquired about whether the chart represented management for
the JPO MRAP Forward organization as a whole, the Deputy Program Manager, JPO
MRAP (Government employee) stated that the Government manages the JPO MRAP
Forward operations and the chart specifically identified only Government personnel in
the JPO MRAP Forward organization with responsibility in theater. He also noted that
not all of the contractor personnel have left the organization. We question whether the
chart fully illustrates all management positions in theater. An e-mail from the Deputy
Program Manager, JPO MRAP, instructed his staff to “be very careful please and very
basic” in responding to the audit team’s inquiry. The e-mail specifically stated that


9
 The director was formerly known as the Program Manager, JPO MRAP Forward.

10
  The theater officers in charge were formerly known as the Assistant Program Managers, JPO MRAP

Forward.



                                                               16

“suggest we just say [the contractor employees] work for the JPO leads.” In addition, the
SAIC contract employee, who held the position of Assistant Program Manager,
Operation Enduring Freedom, during our site visit to Southwest Asia, was called the
“SAIC Afghanistan Country Lead” as of July 2010. This position, however, was not
listed in the updated organizational chart from July 2010.

Although we question whether the July 2010 chart fully illustrated all management
positions in theater, the updated organizational chart showed that actions were taken to
put Government personnel in key management positions. Further, due to the lack of
Government personnel availability, and because the Program Managers, JPO MRAP and
JPO MRAP Forward, who were in the positions during the audit, are no longer with JPO
MRAP, we are not making accountability recommendations pertaining to the former
Program Managers.

Peer Reviews
The Army did not perform a post-award peer review for the JLI 02 contract. Section 808
of Public Law 110-181 requires the Secretary of Defense to issue guidance on periodic
independent management reviews of contracts for services. These independent
management reviews serve to evaluate the contract performance, the use of contracting
                                            mechanisms, the staffing of contract
      These independent management
                                            management and oversight functions, the
  reviews serve to evaluate the contract
                                            extent of the agency’s reliance on the
    performance, the use of contracting
                                            contractor to perform acquisition functions
    mechanisms, the staffing of contract
                                            closely associated with inherently
  management and oversight functions,
                                            governmental functions, and other factors.
  the extent of the agency’s reliance on
                                            To meet the intent of performing independent
   the contractor to perform acquisition
                                            management reviews, the Under Secretary of
     functions closely associated with
                                            Defense for Acquisition, Technology, and
    inherently governmental functions,
                                            Logistics issued DoD Instruction 5000.02,
             and other factors.
                                            “Operation of the Defense Acquisition
System,” December 8, 2008, which requires peer reviews to be conducted on all supplies
and services contracts. Specifically, DoD Instruction 5000.02 requires pre-award reviews
on supplies and services contracts and post-award reviews on services contracts. These
reviews seek to ensure that the requirements are clear and well defined, the acquisition
approach and business strategy are appropriate, and that there are mechanisms in place to
provide for proper oversight of contractor performance.

In December 2008, the Deputy Assistant Secretary of the Army (Procurement) issued a
memorandum providing an implementation plan for peer reviews of contracts for
supplies and services. Specifically, a Solicitation Review Board/Contract Review Board
at the contracting activity is to perform a pre-award peer review and approve all
procurements with an estimated value of $50 million or more. The Solicitation Review
Board/Contract Review Board is to review and assess the pre-solicitation, solicitation and
contract documents for consistency, sufficiency, compliance, and application of sound
business practices. Also, a post-award peer review for contracts valued at less than
$1 billion is to be conducted for services contracts that were approved by an Army


                                           17

Services Strategy Panel. In April 2009, the Deputy Assistant Secretary of the Army
(Procurement) issued a memorandum elaborating on the pre-award peer review policies
and procedures; however, he did not provide guidance for the post-award peer reviews.11
The TACOM Life Cycle Management Command issued guidance on peer review of
contracts in June 2009, but it did not cover post-award peer reviews.

In November 2008, at the time of the solicitation for the JLI 02 contract, an Army Service
Strategy Panel submitted an acquisition strategy for the JLI services, which described the
requirement, cost, schedule, risks of the acquisition, use of competition, use of a BPA,
and business arrangements for the acquisition. On February 23, 2009, a Business
Clearance Board approved the award of the JLI 02 contract to SAIC. According to
TACOM officials, since TACOM had not yet issued guidance pertaining to peer reviews
at the time of the JLI 02 contract award, the Army Service Strategy Panel would serve as
the approval board at the solicitation phase, and the Business Clearance Board would
serve as the contract award approval board.

The contracting officer stated that a post-award peer review would be conducted on the
JLI 02 contract once guidance was provided by the Army. The audit team believes that a
post-award peer review will help ensure that the JLI 02 contract and future acquisitions of
services comply with applicable statutes, regulations, policies, and other requirements.
Although the Army had not issued detailed guidance on how to conduct post-award peer
reviews, the December 2008 Deputy Assistant Secretary of the Army (Procurement)
memorandum also required a post-award peer review to be conducted for contracts
valued less than $1 billion that were approved by an Army Service Strategy Panel.
ACC-Warren officials stated that since the Deputy Assistant Secretary of the Army
(Procurement) was working on guidance for post-award peer reviews, they did not
believe a post-award peer review would have been useful before they received policy
concerning the way in which such post-award peer reviews should be structured and
conducted.

Summary
The officials inappropriately allowed the contractor to exert controls over functions that
should have remained under the authority of the Federal Government when providing
support to the MRAP vehicle program operations in Southwest Asia. The contractor
performed inherently governmental functions by directing Government personnel,
participating in disciplinary actions of Government personnel, and preparing and signing
SOPs. The contractor also engaged in functions that may approach being inherently
governmental by being involved in the development of contract requirements and
participating in situations where the contractor personnel may be assumed to be
Government representatives.




11
  Post-award peer review guidance was to be provided under a separate memorandum; however, the
guidance had not yet been released as of October 2010.


                                                 18

In addition, the contracting officer did not assess organizational conflicts of interest prior
to or during contract performance as required. Contractor employees were involved in
providing program analysis and oversight while providing maintenance services.
Contractor employees also were involved in activities in which they were unable or
potentially unable to render impartial services and advice to the JPO MRAP because they
were, in effect, monitoring their own performance. Also, the JPO MRAP officials
created an organizational structure for JPO MRAP Forward that relied on contractor
employees to provide support in both overseeing and performing maintenance and
logistics activities, thereby generating potential organizational conflicts of interest. A
single Government employee was assigned overseas to oversee a multimillion-dollar
contract in three different countries, which greatly increased the risk for potential waste
or abuse. Further, by relying on the contractor for functions that should have remained
under the control of the Government, the officials increased the risk of improper
execution of the contract and did not ensure that the contract for JLI services was in the
best interest of DoD.

Management Comments on the Finding and Our
Response
The U.S. Army Materiel Command responded to the draft report and endorsed the
comments from the Executive Director, ACC-Warren, who provided the following
comments on the finding.

Comments on Organizational Conflicts of Interests
The Executive Director, ACC-Warren, stated that there was miscommunication during
our meeting with contracting officials. Specifically, he stated that neither the contract
specialist nor the contracting officer remembered making, or agreeing with, a discussion
that the contractor was involved in any way in the preparation of the contract
requirements that were competed and awarded as the JLI 02 contract. He stated that the
contracting officials did not have knowledge of involvement of any contractor prior to the
JLI 02 contract award. In addition, the executive director indicated that one of the
exceptions stated in FAR 9.505-2(b)(1) allowed the contractor to be involved in
developing requirements for sole-source contracts. He stated that the JLI 02 BPA was a
competitive acquisition, but JLI 02 task order 0001 was not; and because the task order
was issued as a sole-source contract for JLI-type services, it met the exception in
FAR 9.505-2(b)(1). Furthermore, the executive director said the contracting officer
stated that her organizational conflicts of interest review was not separately documented
because FAR 9.504(d) only requires that an organizational conflicts of interest review be
documented when substantive issues concerning organizational conflicts of interest exist.
He stated that our draft report seemed to treat the absence of documentation of a review
as proof that no review was conducted.

Our Response
We disagree with the comments from the Executive Director, ACC-Warren. We held
meetings with contracting officials and the Product Manager for Logistics and
Sustainment, JPO MRAP, on December 7, 2009. In the meeting with contracting


                                             19

officials, the contracting officer explained how the JLI 01 SOW was developed, and the
contracting specialist specifically stated that “SAIC and JPO MRAP officials worked
together to prepare the general requirements” for the JLI 02 contract SOW. The
contracting officer agreed with the contracting specialist. We then met with the Product
Manager for Logistics and Sustainment, JPO MRAP, to independently confirm the
information pertaining to the development of the JLI 02 contract SOW. The product
manager stated that JPO MRAP and SAIC personnel discussed the requirements included
in the SOW for the contract. Based on statements made by the contracting officials and
the product manager, we believe that the contractor was involved in the preparation of the
contract requirements.

Management comments correctly stated that FAR 9.505-2(b)(1) allows contractor
involvement for requirements in sole-source contracts; however, contractor involvement
should not have been allowed for the requirements for the JLI 02 BPA. The JLI 02 BPA
was issued as a competitive single-source contract, which allowed all purchases from the
BPA to be procured from the same contractor, therefore making task order 0001 of the
BPA a sole-source contract. As we discussed in the report, the JLI 02 BPA was solicited
through GSA multiple-award-schedule contracts, and BPAs and orders issued against
contracts awarded by GSA are considered to be issued using full and open competition.
Therefore, the exception of sole-source contracts specified in FAR 9.505-2(b)(1) does not
apply in this case since the JLI 02 BPA was a competitive acquisition.

In addition, during the meeting with contracting officials on December 7, 2009, we asked
the officials whether the contractor had notified the contracting officer of any potential
conflicts of interest that may have arisen during their work on the JLI 02 contract. The
contracting officer stated that the contractor had not notified her of any conflicts of
interest. During this meeting, we also provided examples to the contracting officer of
how SAIC’s duties and performance of the JLI 02 contract in Southwest Asia posed
conflicting roles. The contracting officer was notably surprised and agreed that the
examples we provided showed that the contractor had organizational conflicts of interest.
She stated that “[organizational conflicts of interest] were not evaluated beyond SAIC’s
statement”; however, the legal office had certified the award. The contracting officer
further stated that ACC-Warren officials did not assess organizational conflicts of interest
for the JLI 02 contract but were in the process of assessing organizational conflicts of
interest on new procurements. We are aware that FAR 9.504(d) states that an
organizational conflicts of interest review must be documented only where a substantive
potential organizational conflict of interest has been identified. We did not treat the
absence of documentation of an organizational conflict of interest review as proof that no
review was performed; the contracting officer’s statements clearly indicated that a review
of organizational conflicts of interest was not performed by the contracting officer for the
JLI 02 contract. Further, based on the examples cited in the report (p. 10 for example),
substantive potential organizational conflicts of interest did exist and should have been
identified prior to the contract award.




                                            20

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, Marine Corps Systems Command,
require the Joint Program Office, Mine Resistant Ambush Protected Vehicle
Program, officials to obtain training on inherently governmental functions and
organizational conflicts of interest requirements as prescribed by the Federal
Acquisition Regulation.

Commander, Marine Corps Systems Command, Comments
The Commander, MCSC, agreed, stating that he will issue guidance for all personnel
assigned to the Joint MRAP Vehicle Program to receive annual training on inherently
governmental functions and organizational conflicts of interest. The Commander, MCSC,
stated that the training will be developed and completed by September 30, 2011.

A.2. We recommend that the Program Manager, Joint Program Office, Mine
Resistant Ambush Protected Vehicle Program, issue guidance that all direction or
tasking shall come from Government employees.

Commander, Marine Corps Systems Command, Comments
The Commander, MCSC, responded on behalf of the Program Manager, JPO MRAP.
The Commander, MCSC, agreed, stating that he will issue formal guidance not later than
May 31, 2011, to all personnel that all direction or tasking shall come from Government
employees. On June 15, 2011, the Commander, MCSC, issued formal guidance to all
personnel that military and/or DoD civilians are to provide leadership, management, and
oversight on all DoD contracts within their purview to ensure proper contract
performance and execution. He stated that at no time are contractor personnel to
supervise, manage, or provide work direction to DoD civilian or military personnel.

A.3. We recommend that the Executive Director, Army Contracting Command-
Warren:

       a. Require contracting officials to obtain training on inherently
governmental functions and organizational conflict of interest requirements, as
prescribed by the Federal Acquisition Regulation.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, agreed, stating that ACC-Warren will require
contracting officials to obtain training on inherently governmental functions and
organizational conflicts of interest requirements, described in FAR 7.503. He stated that
December 30, 2011, was the target completion date to have all contracting officers
trained on both organizational conflicts of interest and inherently governmental functions.




                                            21

        b. Perform a review of the contracting officers’ performance related to
procuring and administrating the Joint Logistics Integrator services contract and
initiate, as appropriate, any administrative actions warranted by the review.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, agreed, stating that ACC-Warren will perform a
review of the contracting officers’ actions and initiate, as appropriate, any actions
warranted by the review. He stated that to ensure an impartial and thorough assessment,
the review will be conducted by a management official from ACC-Warren outside the
chain of command of the contracting officers in question. The Executive Director,
ACC-Warren, stated that the target completion date was December 30, 2011, and the
review results would be presented to the Principal Assistant Responsible for Contracting,
who will determine any corrective actions that may be warranted.

       c. Issue guidance to instruct and remind all contracting officers of the
requirements in the Federal Acquisition Regulation for identifying, evaluating, and
resolving organizational conflicts of interest.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, agreed, stating that ACC-Warren will issue
guidance to instruct and remind all contracting officers of the requirements in the FAR
for identifying, evaluating, and resolving organizational conflicts of interest, with a target
completion date of December 30, 2011.

       d. Require contracting officials to review contract W56HZV-09-A-0003,
delivery order 0001, to ensure that organizational conflicts of interest have been
mitigated.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, agreed, stating that ACC-Warren will require
contracting officials to review contract number W56HZV-09-A-0003, delivery
order 0001, and ensure that any identified organizational conflicts of interests are
reviewed and effectively mitigated, with a target completion date of December 30, 2011.




                                             22

A.4. We recommend that the TACOM Principal Assistant Responsible for
Contracting perform a peer review on contract W56HZV-09-A-0003, delivery order
0001.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, is also the TACOM Principal Assistant
Responsible for Contracting. The Executive Director, ACC-Warren, agreed, stating that
ACC-Warren will perform a peer review on contract W56HZV-09-A-0003, delivery
order 0001, with a target completion date of December 30, 2011.

Our Response
Comments from the Commander, MCSC, and Executive Director, ACC-Warren, are
responsive, and no further comments are required.




                                          23

Finding B. Use of Time-and-Materials
Contract Type Should Be Limited
The contracting officer at ACC-Warren did not adequately support the need to use a
T&M contract for the follow-on JLI effort, valued at $285.5 million. Specifically, the
Determination and Findings (D&F) did not adequately support the use of a T&M contract
to procure services for the JLI follow-on effort when another contract option was
available. This occurred because the contracting officer stated that she could not estimate
the extent or duration of the work needed due to constant changes in mission need and
work performed, even though 18 months of historical data from the initial JLI contract
could have provided a basis for estimating the work. As a result, the contracting officer
may have incurred unnecessary costs by using the riskiest contract type that provides no
incentive to the contractor for cost control or labor efficiency.

Time-and-Materials Criteria
FAR 16.601, “Time-and-Materials, Labor-Hour, and Letter Contracts,” states that a T&M
contract may be used only when it is not possible at the time of placing the contract to
estimate accurately the extent or duration of the work or to anticipate costs with any
reasonable degree of confidence. A T&M contract acquires services based on direct
labor hours at specified fixed hourly rates that include wages, overhead, general and
administrative expenses, and profit. In addition, FAR 16.601 states that a T&M contract
provides no positive profit incentive to the contractor for controlling costs or labor
efficiency; therefore, appropriate Government surveillance of contractor performance is
required to give reasonable assurance that efficient methods and effective cost controls
are being used.

Furthermore, a T&M contract may only be used if the contracting officer prepares a D&F
to support that no other contract type is suitable. FAR subpart 1.7, “Determination and
Findings,” states that each D&F must set forth enough facts and circumstances to clearly
and convincingly justify the specific determination made in the D&F.

SAIC’s Support as the Joint Logistics Integrator
To support the JPO MRAP for logistics services, contracting officers at ACC-Warren
awarded two contracts for the JLI effort. The JLI supported the JPO MRAP Forward by
performing logistic engineering analysis, as well as providing oversight and management
of the efforts for all activities associated with fielding, training, and sustainment
operations in theater.

JLI 01 Contract
On November 30, 2007, ACC-Warren awarded the initial JLI effort (JLI 01, contract
W56HZV-04-A-0005, delivery order 0256) to Jacobs Technology. The Program
Manager, JPO MRAP Forward, certified that this effort was so urgent that initially
awarding the contract as a T&M undefinitized contractual action was in the best interest


                                            24

of the Government. The final definitized contract was valued at $193.4 million, and its
period of performance extended from December 3, 2007, through June 2009.

ACC-Warren officials explained that the initial JLI effort was awarded as a T&M
contract because the BPA that it was awarded against was a T&M contract and also
because the JLI effort was a new type of requirement unfamiliar to contracting and
program officials. ACC-Warren officials stated that they used GSA multiple-award-
schedule contracts because these contracts included GSA-determined fair and reasonable
labor rates and categories, which allowed them to award the contract for JLI services
more quickly. In addition, both contracting and program officials were uncertain of what
the JLI services would entail; therefore, ACC-Warren officials believed a T&M contract
type would be a better means for the procurement.

The FAR requires that a D&F be prepared and signed by the contracting officer before
issuing T&M contract types; however, ACC-Warren officials were unable to provide the
required D&F document for the initial JLI effort. ACC-Warren officials informed us that
they received management guidance waiving this requirement; however, they did not
have documentation to support a waiver releasing ACC-Warren officials from having to
prepare a D&F to award a T&M contract for the effort.

JLI 02 Contract
On May 4, 2009, ACC-Warren awarded the JLI follow-on effort (JLI 02, contract
W56HZV-09-A-0003, delivery order 0001), valued at $285.5 million, to SAIC. The
contract was awarded as a T&M contract against a BPA exclusive for logistics and
operational readiness services. ACC-Warren officials prepared a D&F for the BPA,
which concluded that contracts issued against the BPA would be awarded as T&M
contracts. According to the D&F, the overall rationale was based on the fact that the
initial effort had been awarded on a T&M basis; therefore, the follow-on effort should be
awarded on a T&M basis as well, to meet the needs of the Government for the types of
services to be acquired.

ACC-Warren officials explained that TACOM’s legal counsel recommended the JLI
follow-on effort to be issued as a T&M contract because the requirements for the work
                                                 performed were constantly changing and
   A T&M contract may be used only when
                                                 uncertain; however, ACC-Warren
         the contracting officer may not
                                                 officials stated they did not have any
  accurately estimate the extent or duration
                                                 documentation supporting this legal
    of the work or anticipate costs with any
                                                 recommendation. ACC-Warren officials
    reasonable degree of confidence at the
                                                 also explained that the duration of
           time of placing the contract.
                                                 services required for the JLI follow-on
effort could not be accurately estimated due to the services occurring in contingency
locations in Iraq, Afghanistan, Qatar, and Kuwait.

A T&M contract may be used only when the contracting officer may not accurately
estimate the extent or duration of the work or anticipate costs with any reasonable degree
of confidence at the time of placing the contract. ACC-Warren officials could have used

                                            25

historical data from the initial JLI effort to estimate the extent or duration of work
required with a reasonable degree of confidence for the JLI follow-on effort. The JLI
follow-on effort was awarded with a 1-year period of performance and continued the
performance of similar services provided during the initial JLI effort, such as
maintenance, joint logistics operations, and theater personnel management. In addition,
the JLI follow-on effort used GSA multiple-award-schedule contract labor categories
similar to those GSA labor categories used for the initial JLI effort.

The contracting officer stated that experience with the initial JLI effort proved that T&M
contract types were the only option; however, FAR 12.207, “Contract Type,” allows
firm-fixed-price, fixed-price with economic adjustment, T&M, and labor-hour contracts
to be used to procure commercial services. The GSA-multiple-award-schedule contracts
used for the JLI follow-on effort allowed for a streamlined acquisition process, as well as
award of firm-fixed-price or T&M contract types. ACC-Warren officials could have
used labor-category data and experience from the initial JLI effort to estimate a basis for
the extent and duration of work needed within a reasonable degree of confidence for the
JLI follow-on effort. Instead, ACC-Warren
                                                           A T&M contract provides no
officials chose to procure JLI services using a
                                                              profit incentive to the
T&M contract, the riskiest contract type. A T&M
                                                          contractor for labor efficiency
contract provides no profit incentive to the
                                                               or controlling costs.
contractor for labor efficiency or controlling costs.
Because profit is included in the hourly labor rate, the contractor earns profit for every
additional hour worked. Therefore, ACC-Warren should have evaluated and used
historical data to define the requirements well enough to use a less risky contract type for
the services for the JLI follow-on effort, valued at $285.5 million.

In addition, on June 28, 2010, the Under Secretary of Defense for Acquisition,
Technology, and Logistics provided a framework for restoring affordability to defense
products and services. The framework specifically calls for the use of fixed-price,
performance-based contracts and the phase out of T&M contracts whenever possible.
ACC-Warren officials should take action to encourage a restoration of affordability for
defense products and services.

Contract Oversight Requires Additional DoD Personnel
ACC-Warren officials did not provide sufficient Government surveillance over SAIC’s
performance as the JLI. FAR 16.601, “Time-and-Materials Contracts,” states that a time-
and-materials contract provides no positive profit incentive to the contractor for cost
control or labor efficiency; therefore, appropriate Government surveillance of contractor
performance is required to give reasonable assurance that efficient methods and effective
cost controls are being used. Also, Defense Federal Acquisition Regulation Supplement
201.602-2, “Responsibilities,” states that a contracting officer’s representative (COR) is
to assist in the technical monitoring or administration of a contract. However,
ACC-Warren officials did not provide the means for appropriate Government
surveillance over these contractor services.



                                             26

The Deputy Product Manager for Logistics, JPO MRAP, was designated as the COR on
May 1, 2009; he had never visited theater. The Quality Assurance Surveillance Plan
stated that the JPO MRAP Forward would be the eyes and ears of the COR in theater and
would report on JLI performance in theater to the COR. As discussed in Finding A,
SAIC contract employees held key management positions under the Program Manager,
JPO MRAP Forward, who was the only Government official responsible for the entire
MRAP vehicle program in theater.

Subsequently, the Program Manager, JPO MRAP Forward, was designated as the COR
on July 21, 2009, over 2 months after the contract award and, as illustrated in Figure 2,
was the only Government employee in a key management position in the JPO MRAP
Forward as of August 2009. The Quality Assurance Surveillance Plan also required the
contractor to provide a list of reports to the JPO MRAP on the methodology used to
monitor the contractor’s performance. According to the Quality Assurance Surveillance
Plan, the COR would use these reports to assess the overall quality of SAIC’s
performance. However, ACC-Warren officials could only provide one of the various
reports we requested. The report ACC-Warren officials provided did not show that a
DoD official reviewed the accuracy of the contents of the report. In addition, we do not
believe that one Government employee was capable of assisting in the technical
monitoring or administration of the JLI contract as well as providing oversight over the
entire JPO MRAP Forward. During the site visit to Southwest Asia (July through August
2009), the audit team observed that the program manager was the only Government
employee performing oversight over SAIC personnel. On October 22, 2009, two
additional CORs were designated and the program manager’s COR appointment was
rescinded on April 21, 2010. Therefore, we are not making a recommendation on
contract oversight.

Summary
The D&F and prior contract data did not adequately support the contracting officer’s
decision for procuring commercial services using a T&M contract type. The contracting
officer could have used information from the
                                                      The contracting officer could have
initial JLI effort to estimate the extent or
                                                       used information from the initial
duration of the work needed for the JLI
                                                      JLI effort to estimate the extent or
follow-on effort. Instead, the contracting
                                                       duration of the work needed for
officer awarded the JLI follow-on effort as a
                                                            the JLI follow-on effort.
T&M contract, which provides no positive
profit incentive to the contractor for labor efficiency or cost control. When using this
type of contract, the contracting activity should monitor and manage the contractor’s
performance closely.

Management Comments on the Finding and Our
Response
The U.S. Army Materiel Command responded to the draft report and endorsed the
comments from the Executive Director, ACC-Warren, who provided the following
comments on the finding.

                                            27

Comments on JLI 02 Contract Type
The Executive Director, ACC-Warren, stated that at the end of JLI 01, the MRAP
program was far from an established, steady-state program that could have allowed
JLI 02 to be estimated and procured on a firm-fixed-price basis. He also stated that they
anticipated that the decrease of the JLI manning requirement from April 2011 forward
would be “as unpredictable and as bumpy” as the growth path has been since 2009. He
further stated that executing JLI 02 as an instrument permitting only firm-fixed-price task
orders would likely result in mission failure.

Our Response
We did not suggest that the entire JLI 02 contract be firm-fixed-price. We recommended
that a process be established to gather and analyze data from the JLI contract, so that
selected tasks could be converted to fixed-price work.

Recommendation, Management Comments, and Our
Response
B. We recommend that the Executive Director, Army Contracting Command-
Warren, require contracting officials to establish a process that will gather and
analyze data from the Joint Logistics Integrator contract, so that selected tasks can
be converted to fixed-price work.

Executive Director, Army Contracting Command-Warren,
Comments
The Executive Director, ACC-Warren, agreed stating that contracting officials will work
with the Program Manager, MRAP’s procurement analyst to establish a process that will
gather and analyze data from the JLI contract to determine if selected tasks can be
converted to fixed-price work, with a target completion date of December 30, 2011.

Our Response
The comments are responsive, and no further comments are required.




                                            28

Appendix A. Scope and Methodology
We conducted this performance audit from July 2009 through February 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We collected, reviewed, and analyzed documents from March 2004 through October
2010. We reviewed General Services Administration Schedule contracts pertaining to
Joint Logistics Integrator (JLI) services, JLI statements of work, the Mine Resistant
Ambush Protected (MRAP) Joint Supportability Plan, the JLI 02 Acquisition Plan,
standard operating procedures, contractor cost proposals, Quality Assurance Surveillance
Plans, organizational charts, Limited Technical Inspection evaluations, and additional
documents supporting the basis for award. Additionally, we reviewed Blanket Purchase
Agreement (BPA) W56HZV-04-A-0005; BPA W56HZV-09-A-0003; W56HZV-04-A-
0005, delivery order 0256; W56HZV-09-A-0003, task order 0001; and their associated
modifications, for JLI services from the two contracts awarded to Jacobs Technology and
Science Applications International Corporation (SAIC).

We reviewed applicable contracting regulations, including the Federal Acquisition
Regulation and Defense Federal Acquisition Regulation Supplement. We interviewed
contracting and program officials from the Joint Program Office (JPO) MRAP at
TACOM Life Cycle Management Command. We also went to Kuwait and Iraq. In
Kuwait, we visited the MRAP Vehicle Sustainment Facility. In Iraq, we visited the JPO
MRAP Forward Headquarters in Balad, the Balad Regional Support Activity, and the
Camp Liberty Regional Support Activity. While in Kuwait and Iraq, we interviewed JPO
MRAP Forward personnel, SAIC maintenance personnel, Red River Army Depot
personnel, and Quality Assurance and Quality Control personnel.

This is the third in a series of reports addressing maintenance support for the MRAP
vehicles. For this report, the audit team limited the scope to only JLI services. The team
previously reported on the Field Service Representative and Instructor services procured
to support MRAP vehicle maintenance and on the award of the Instructor services
contract to TJ FIG. During the review of Field Service Representative and Instructor
services supporting MRAP maintenance requirements, we identified that the JLI is an
integral part of MRAP logistics program and maintenance support; therefore, we included
the review of JLI services in our audit scope. We did not visit Afghanistan as part of this
audit.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a Web-based system that provides online access of
acquisition-related documents. We used the system to obtain contractual documents to

                                            29

identify JLI services procured for the MRAP vehicle program. We compared the
Electronic Document Access documents with statements and documents provided by
Army Contracting Command-Warren officials. From these procedures, we are confident
that the Electronic Document Access Web site was sufficiently reliable for the purpose of
acquiring contract documents for our analysis of JLI services.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD Inspector
General (DoD IG), and U.S. Army Audit Agency (AAA) have issued seven reports
discussing MRAP vehicle procurements. Unrestricted GAO reports can be accessed over
the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-08-884R, “Rapid Acquisition of Mine Resistant Ambush
Protected Vehicles,” July 15, 2008

DoD IG
DoD IG Report No. D-2011-036, “Competition Should be Used for Instructor Services
for the Mine Resistant Ambush Protected Vehicles,” February 3, 2011

DoD IG Report No. D-2010-068, “Government Oversight of Field Service
Representative and Instructor Services in Support of the Mine Resistant Ambush
Protected Vehicle Program,” June 17, 2010

DoD IG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles,” January 29, 2009

DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,”
June 27, 2007

Army
AAA Report No. A-2010-0156-ALC, “Compliance With Section 807 of the 2008
National Defense Authorization Act,” August 24, 2010

AAA Report No. A-2009-0221-ALA, “Effect of the Mine Resistant Ambush Protected
Vehicle Upon Tactical Vehicle System Requirements,” September 21, 2009




                                           30

Appendix B. Examples of SAIC Performing
Inherently Governmental Functions
Contractor personnel performed inherently governmental functions by directing
Government personnel and participating in disciplinary actions of Government personnel,
which is prohibited by Federal Acquisition Regulation subpart 7.5, “Inherently
Governmental Functions.”

Direction of Government Personnel
The Assistant Program Manager, Joint Program Office, Mine Resistant Ambush
Protected (JPO MRAP) Forward, Operation Iraqi Freedom (contractor employee)
directed the Red River Army Depot (RRAD) Liaison Officer (Government employee) to
meet with him stating that it was the Liaison Officer’s responsibility to adhere to the
assistant program manager’s requests:

       I am not going to chase you around. It is your responsibility to stop by and see me. 

       If you have an emergency that has you otherwise engaged, you should have already

       informed me as such. 

       Since you have not informed me of any emergency . . . I cannot think of any reasons for 

       you to not to have completed the task I have asked of you. 

       It would be in your best interest to see me as soon as you possibly can.

       If I were you, I would make this your top priority. [emphasis added]


The tone of the e-mail suggested that the Liaison Officer’s job security was at risk if he
did not follow the assistant program manager’s directions.

The assistant program manager did not allow RRAD management (Government
employees) to hire RRAD personnel without coordinating actions with the assistant
program manager first, as directed by the Program Manager, JPO MRAP Forward
(Government employee). The assistant program manager stated that he would
specifically authorize any RRAD personnel in-bound to theater.

The Balad and Camp Liberty Regional Support Activity (RSA) site leads stated that the
assistant program manager informed all RSA site leads in Iraq that he was the first-line
supervisor and that all personnel movements were to be filtered through and authorized
by him. In one occurrence, two RSA site leads supported a RRAD employee transfer;
however, the transfer had to be approved by the assistant program manager first,
demonstrating the assistant program manager’s role as first-line supervisor for all RSA
site leads in Iraq.

Involvement in Disciplinary Actions
The RRAD Liaison Officer stated that RRAD personnel were having difficulties
disciplining, promoting, and extending their own personnel’s time in theater without the
assistant program manager’s involvement, which resulted in the delay of processes. The
Liaison Officer further stated that the assistant program manager had authorized RRAD

                                                 31

personnel back to the United States and had outlined disciplinary actions, which were
later approved by the battalion commander.

The Balad RSA site lead stated that the assistant program manager delayed a mechanic’s
letter of release. When we spoke to the assistant program manager, he admitted that he
provided his recommendation in several disciplinary incidents that warranted letters of
release of RRAD personnel.

RRAD Headquarters personnel stated that the Program Manager, JPO MRAP Forward
(Government employee) had given the Deputy Program Manager, JPO MRAP Forward
(contractor employee) all administrative and disciplinary authority over the MRAP
vehicle program personnel in Kuwait. The deputy program manager confirmed to the
audit team that he briefed Government officials on disciplinary issues with RRAD
mechanics.




                                           32

Appendix C. Duplicated Efforts in MRAP
Vehicle De-processing
Joint Logistics Integrator (JLI) personnel performed mine resistant ambush protected
(MRAP) vehicle de-processing, which included conducting a series of vehicle functional
checks and resolving anomalies observed during the functional checks. During the
fielding of MRAP vehicles, vehicles were shipped to Kuwait and re-routed to Regional
Support Activities (RSAs) throughout Iraq and Afghanistan to be issued to military units.
JLI personnel duplicated the efforts of Red River Army Depot (RRAD) personnel by de-
processing MRAP vehicles in Kuwait before RRAD personnel de-processed the same
vehicles in Iraq. Since June 2007, RRAD personnel have supported the Joint Program
Office (JPO) MRAP by performing MRAP vehicle de-processing at RSAs in Iraq and
Afghanistan prior to the vehicles being issued to military units. However, JLI personnel
began performing MRAP vehicle de-processing in Kuwait during the initial JLI effort in
December 2007 and continued de-processing MRAP vehicles during the JLI follow-on
effort. The audit team visited Kuwait and Iraq in July and August of 2009 and
discovered that JLI and RRAD personnel had de-processed MRAP vehicles using the
same Limited Technical Inspection checklists to perform and record vehicle functional
checks.* As a result, the JPO MRAP duplicated MRAP vehicle de-processing efforts by
allowing JLI personnel to de-process MRAP vehicles in Kuwait using the same Limited
Technical Inspection checklists used by RRAD personnel at RSAs throughout Iraq.

JPO MRAP officials stated that inspections were appropriate in both cases in order to
optimize crew safety. They stated that vehicles could have been damaged in transit, or
may have lost required components or pieces of equipment while being moved or while
in storage awaiting transit. JPO MRAP officials stated that the inspections helped to
ensure that equipment issued to units was operational and complete, thereby avoiding
potential failures or shortfalls that could come to light during a combat mission.
However, we still question why JLI personnel performed the inspections in Kuwait using
the same checklist as the RRAD personnel had used when inspecting the vehicles before
handing them off to units in Iraq. A proper inspection at the point of hand off to the units
allows for the identification and resolution of any problems.




*
 Some Limited Technical Inspection checklists may have contained more inspection procedures than
others; however, the majority of the inspection procedures were the same.

                                                 33

U.S. Marine Corps Systems Command Comments





                 Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Army Materiel Command Comments





                 Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
Click to add JPEG file
